DEPARTMENT OF HOMELAND SECURITY
-
      Office of Inspector General

     A Review of the World Trade Center 

        Captive Insurance Company 





    OIG-08-21                   June 2008
                                                            Office of Inspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                                     June 12, 2008

                                         Preface

The Department of Homeland Security Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses concerns raised by Congressman Jerrold Nadler regarding the
World Trade Center Captive Insurance Company’s handling of claims arising from debris
removal work at the World Trade Center site following the September 11, 2001, terrorist
attacks. It is based on interviews with employees and officials of relevant agencies and
institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. It is
our hope that this report will result in more effective, efficient, and economical
operations. We express our appreciation to all of those who contributed to the
preparation of this report.



                                     Richard L. Skinner 

                                     Inspector General 

Table of Contents/Abbreviations 


Executive Summary .............................................................................................................1


Background ..........................................................................................................................2 


Results of Review ................................................................................................................8 


     The Captive’s Litigation of Claims Does Not Violate Public Law 108-7 or 

     the Grant and Sub-Grant Agreements............................................................................8 


     The Captive’s Expenditures Are Offset Through Investment Income and 

     Guided by Internal Controls.........................................................................................15 


     Claims Administration Procedures Support the Captive’s Current Activities.............19 


     FEMA Oversight Activities Should Be Strengthened .................................................22 

     Recommendations........................................................................................................28 

     Management Comments and OIG Analysis ................................................................28 


Appendices
     Appendix A:          Purpose, Scope, and Methodology........................................................33 

     Appendix B:          Management Comments to the Draft Report ........................................35 

     Appendix C:          Letter from Congressman Jerrold Nadler..............................................41 

     Appendix D:          World Trade Center Captive Insurance Company’s Claims

                          Administration Process .........................................................................43 

     Appendix E:          World Trade Center Captive Insurance Company Expenditures 

                          as of March 2008 ..................................................................................46 

     Appendix F:          Site Locations for World Trade Center Recovery Operations...............47 

     Appendix G:          Major Contributors to this Report .........................................................48 

     Appendix H:          Report Distribution................................................................................49 


Abbreviations
     DHS                 Department of Homeland Security 

     FEMA                Federal Emergency Management Agency 

     OIG                 Office of Inspector General 

     OMB                 Office of Management and Budget 

     VCF                 Victim Compensation Fund 

     WTC                 World Trade Center 

OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
                 After the September 11, 2001, terrorist attacks in New York City
                 and collapse of the World Trade Center (WTC) towers, city
                 agencies and private contractors began to remove debris from the
                 site. Contractors normally purchase insurance for such projects,
                 and are reimbursed by the Federal Emergency Management
                 Agency (FEMA). However, the magnitude of the disaster, ensuing
                 environmental concerns, and the potential for unknown liabilities
                 left the city and its contractors with insufficient insurance, as
                 insurance markets were averse to the inherent risks of providing
                 coverage for workers at the site.

                 Due to the risks assumed by the city and its contractors working
                 without commercial insurance coverage, Public Law 108-7 directed
                 FEMA to provide up to $1 billion to create an insurance company.
                 New York City, with funding from FEMA, established the World
                 Trade Center Captive Insurance Company in July 2004. The
                 company was to insure the city and its contractors for claims arising
                 from debris removal at the WTC and related sites. As of March
                 2008, individuals alleging health problems from work at the WTC
                 site had filed 9,397 suits against the city and its contractors. While 6
                 claims totaling $320,936 were settled with insureds for plaintiffs
                 with broken bones and cuts, no claims involving alleged cases of
                 respiratory problems, gastrointestinal illness, or cancer have been
                 settled, since such cases are the subject of litigation.

                 Agreements between FEMA, New York State, New York City, and
                 the World Trade Center Captive Insurance Company allow for
                 payment of legal fees to defend insureds, which totaled
                 $103,700,734 as of March 2008. These agreements also permit the
                 company to invest the federal funds to offset operational costs. As
                 of March 2008, the company’s assets totaled $1,011,230,283.

                 The World Trade Center Captive Insurance Company also hired a
                 private firm that specializes in third-party claims administration
                 services. This firm has implemented procedures to receive and
                 catalog claims, assess whether claims are covered under the
                 insurance policy, and notify the defense counsel of lawsuits. We
                 made five recommendations for FEMA to improve its oversight of
                 the Captive’s procurement process and financial reporting. FEMA
                 concurred with all recommendations.
             A Review of the World Trade Center Captive Insurance Company


                                        Page 1

Background
                            Our review of the World Trade Center (WTC) Captive Insurance
                            Company responds to concerns raised by Congressman Jerrold
                            Nadler of “possible mishandling of claims brought by individuals
                            who have suffered deleterious health effects as a result of their
                            rescue and recovery work at the WTC site.” In his July 27, 2006,
                            letter, Congressman Nadler questioned (1) why the Captive opted
                            to litigate every claim that has been filed, (2) whether a process to
                            handle such claims has been established, and (3) the amount of
                            funds spent on legal fees to defend the city and other named
                            insureds.

                            Immediately following the September 11, 2001, terrorist attacks in
                            New York City, municipal agencies and private sector contractors
                            worked with other responders to rescue survivors and remove
                            debris from the collapsed WTC towers. In response to the attacks,
                            President Bush declared a national emergency, triggering a federal
                            response that drew several agencies, including the Federal
                            Emergency Management Agency (FEMA), into the rescue and
                            recovery effort. FEMA, under disaster number DR-1391-NY,
                            ultimately expended about $8.8 billion for rescue and recovery
                            efforts in lower Manhattan. These funds covered rescue and debris
                            removal operations, assistance grants to those affected by the
                            tragedy, and compensation to municipal agencies for additional
                            expenses related to the emergency response and recovery
                            operations.

                            Throughout the recovery effort, the uniqueness of the disaster
                            remained apparent. Beyond the sheer scale of the attack and the
                            collapse of the 110-story Twin Towers, rescue and recovery
                            workers faced over a million tons of debris nearly 12 stories high,
                            fires that smoldered for almost 3 months, and layers of asbestos-
                            laden dust, pulverized concrete, glass fibers, and other hazardous
                            materials. Debris was transported from the WTC site by truck to
                            various loading and unloading areas, transfer stations, and piers
                            where additional sorting and recovery of human remains took
                            place before final disposal.1




1
    See Appendix E for a description of the “WTC site” locations.
                        A Review of the World Trade Center Captive Insurance Company


                                                    Page 2

    Recovery Workers at the WTC Site in Lower Manhattan




    Source: FEMA Photo Library

    Municipal agencies and private contractors responded to the
    disaster immediately, without waiting to negotiate and sign
    contracts, search for adequate insurance coverage, or obtain
    indemnity for the work they would perform. AMEC Construction
    Management Inc., Bovis Lend Lease LMB, Inc., Tully
    Construction Co., Inc., and Turner Construction Company
    ultimately worked as the four prime contractors at the WTC site, in
    addition to dozens of subcontractors and consultants, collectively
    referred to as contractors.

    While insurance coverage is normally a prerequisite for debris
    removal and a reimbursable expense under FEMA’s public
    assistance program, neither New York City nor the contractors
    were able to purchase adequate insurance for their work at the
    WTC site. Commercial insurers were wary of issuing a
    comprehensive policy due to the uniqueness of the disaster and the
    potential for unknown liabilities resulting from exposure to
    hazardous materials at the site. Rescue and recovery efforts
    continued nonetheless. New York City was able to obtain
    $500 million in marine insurance from Lloyds of London and
    $79 million in general liability insurance from Liberty Mutual and
    London Market insurers for itself and its contractors. This
    coverage, however, was limited and insufficient. FEMA
    reimbursed New York City for the cost of that insurance coverage.



A Review of the World Trade Center Captive Insurance Company


                           Page 3 

    With the commercial insurance market unwilling to issue a
    comprehensive policy, New York City and the contractors initially
    sought federal immunity from potential liabilities associated with
    debris removal. This attempt was unsuccessful and the search for
    insurance coverage continued into 2002. New York City and its
    contractors continued to seek a federal solution, eventually gaining
    White House and congressional backing for a $1 billion allocation
    of federal funds to address the insurance gap.

    Throughout 2002, FEMA, officials from New York City and New
    York State, and contractor representatives held discussions on how
    best to secure the necessary coverage. Representatives from New
    York City and the contractors continued to meet with members of
    Congress and White House staff to discuss the issue. In December
    2002, New York City, acting in conjunction with the New York
    State Emergency Management Office and the contractors,
    submitted a final proposal to FEMA, formally requesting that the
    federal government fund the creation of a captive insurance
    company with a $1 billion premium. In general, captive insurance
    offers a means to acquire coverage for risks that might not
    otherwise be available, and to do so at a lower cost than through
    standard insurance companies. One or more entities may establish
    a captive insurance company, contributing premiums that can be
    invested and used to pay claims should the need arise. Under New
    York City’s proposal, however, the federal government’s grant
    would pay the entire premium for New York City and the WTC
    site contractors.

    Creation of the WTC Captive Insurance Company

    With White House and congressional support, FEMA participated
    in drafting legislation that authorized it to fund a captive insurance
    company. The legislation was reviewed and passed by Congress,
    signed by the President, and appeared in a Consolidated
    Appropriations Resolution in February 2003, which became Public
    Law 108-7. Specifically, Public Law 108-7 directed FEMA to use
    “up to $1,000,000,000 to establish a captive insurance company or
    other appropriate insurance mechanism for claims arising from
    debris removal, which may include claims made by city
    employees.” The $1 billion was allocated from the total
    $8.8 billion appropriation that covered FEMA’s reimbursements
    for the rescue and recovery efforts in New York City.

    A FEMA official said congressional representatives were
    concerned about protecting the city and its contractors, due to their
    inability to acquire sufficient liability insurance coverage in the

A Review of the World Trade Center Captive Insurance Company


                           Page 4 

    commercial market, and the potential for enormous liability was
    factored into the decision to provide insurance coverage. FEMA
    responded to Congress’ directive by coordinating closely with New
    York State, New York City, and the affected contractors to
    establish the World Trade Center Captive Insurance Company,
    Inc., hereafter referred to as the Captive. Agreements between
    FEMA and New York State, the state and the city, and the city and
    the Captive formalized this project and outlined many of the
    Captive’s obligations. The Captive was incorporated in July 2004,
    and all agreements were officially signed by December 2004.
    After expending $100,000 to hire insurance industry consultants to
    provide expertise on how captive insurance companies work,
    FEMA granted $999,900,000 to New York State. The state then
    transferred the funds through a sub-grant to the city, which
    transferred the funds to the Captive as a premium, and the
    insurance company commenced operations.

    As a captive insurance company, the Captive provides liability
    insurance to New York City and over 140 private contractors who
    participated in the recovery work in lower Manhattan and other
    areas used for debris removal. In addition to the agreements
    between FEMA, New York State, New York City, and the Captive,
    the insurance company is further governed by its own bylaws,
    certificate of incorporation, liability insurance policy, and
    applicable New York State insurance law. The insurance policy is
    issued to New York City and numerous private contractors, all
    confirmed as insureds. These documents were drafted through a
    collaborative process that involved FEMA, New York State, New
    York City, the contractors, and several private consulting firms.
    The Captive’s liability insurance policy is the only policy it will
    issue, because the company’s sole purpose is to provide insurance
    for New York City and its contractors that participated in debris
    removal from the WTC site.

    The Captive’s staff consists of four full-time employees, including
    a president, chief financial officer, general counsel, and an
    administrative assistant. A board of directors oversees the
    company’s operation. This five-member body is appointed by the
    mayor of New York City and includes a contractor representative.
    In addition, several board members form an audit committee that is
    responsible for financial oversight of the insurance company. In
    early 2007, the Captive created a three-member advisory
    committee to resolve claims disputes.

    The Captive contracts with private firms for much of its
    operational work. These companies provide services such as

A Review of the World Trade Center Captive Insurance Company


                           Page 5 

    claims administration and processing, document control, legal
    consultation and defense, financial and investment management,
    media relations, and administrative functions.

    The Captive and Ongoing Litigation

    As of March 2008, the Captive recorded 9,397 suits by individual
    plaintiffs against New York City and its contractors alleging they
    have been harmed through their work at the WTC site or by
    exposure to certain materials at or near the site. As of March 2008,
    the Captive had settled with insureds for six claims arising from
    WTC recovery work totaling $320,936. One settlement in 2006
    partially reimbursed a private insurer after its own decision to
    settle with a plaintiff who had suffered a broken bone. In May
    2007, Captive officers said the company similarly settled with an
    insured regarding five additional claims involving broken bones
    and cuts from workplace accidents that were supported by medical
    records. According to the Captive’s president, none of the settled
    claims were part of ongoing litigation in the federal courts. The
    Captive has not settled any claims involving alleged cases of
    respiratory problems, gastrointestinal illness, cancer, or fear of
    cancer, which continue to be the subject of litigation.

    The ongoing lawsuits cite a range of complaints, from respiratory
    problems to fear of cancer. Medical research and clinical work
    performed since the terrorist attacks suggest that work and
    exposure to materials at the site likely resulted in or exacerbated
    certain respiratory and other health problems. Medical researchers
    and practitioners working on September 11, 2001, health issues
    agree that the full scope of the health effects of the disaster will not
    be known for decades, particularly regarding certain kinds of
    cancer.

    As a basis for their suits, the plaintiffs allege that New York City
    and its contractors were negligent for not providing adequate
    safety measures, which resulted in these injuries or illnesses. Two
    New York City law firms that specialize in mass torts and personal
    injury cases have coordinated the plaintiffs’ lawsuits. In August
    2005, those firms filed a master complaint on behalf of named and
    unnamed individuals in the U.S. District Court for the Southern
    District of New York requesting trial by jury to resolve these
    allegations.

    The Captive, on behalf of New York City and the more than 140
    private contractors it insures, has consolidated and funded the
    defense against lawsuits. Though many lawsuits were initially

A Review of the World Trade Center Captive Insurance Company


                           Page 6 

    filed in state court, the Second Circuit Court of Appeals ruled in
    2005 that the Airline Transportation Safety and System
    Stabilization Act, passed by Congress after the September 11,
    2001, attacks, channeled all related litigation to the U.S. District
    Court for the Southern District of New York.

    Defense attorneys hired by the Captive to represent New York City
    and its contractors argued for broad immunity from liability for the
    work conducted at the WTC site. In October 2006, the district
    court judge ruled that the defendants might be benefited by
    “limited immunity” but that each case must be decided on an
    individual basis through a process of discovery and possibly by
    trial. The defendants appealed the district court’s ruling, again
    arguing for broad immunity. The Second Circuit Court of Appeals
    agreed to consider the defendants’ appeal of the lower court’s
    ruling and, in March 2007, issued a stay of trial and pretrial
    proceedings pending resolution of the immunity question.

    In March 2008, the appeals court ruled that under New York state
    law, defendants were not entitled to immunity from suit, but that
    they might be entitled to immunity from liability. Thus, the
    plaintiff construction workers, firefighters, police, and others are to
    be allowed to pursue their claims, and defendants can raise
    immunity as a defense to liability, to be determined under state
    law. The court further ruled that defendants might benefit from
    federal derivative immunity, depending on the defendants
    relationship with federal agencies involved in managing the WTC
    site. Significant fact-finding remains to resolve the complex
    questions whether the federal government was acting within the
    scope of its immunity for discretionary functions, the levels of
    control and direction federal agencies exercised over the New
    York defendants’ activities, and whether the defendants violated
    state statutes. The ruling returned the litigation to the district
    court, which has initiated discovery proceedings. The district court
    judge requested the submission of documentation to further
    develop claims against New York City and its contractors.

    According to Captive officials, if legal proceedings determine the
    validity of claims and liability is established, the Captive will pay
    those claims. If litigation advances to where affected parties are
    willing to negotiate, Captive officials will negotiate in good faith.




A Review of the World Trade Center Captive Insurance Company


                           Page 7 

Results of Review
     The Captive’s Litigation of Claims Does not Violate Public
     Law 108-7 or the Grant and Subgrant Agreements
          Based on Public Law 108-7, accompanying House Conference Report
          108-10, and the grant agreements, we conclude that the Captive is
          operating pursuant to, and not in violation of, these mandates and other
          documents that guide the Captive’s actions, including the liability
          insurance policy. Public Law 108-7 directed FEMA to provide up to
          $1,000,000,000 to establish a captive insurance company or other
          appropriate insurance mechanism for claims arising from debris removal,
          which may include claims made by city employees. In House Conference
          Report 108-10, Congress stated that the insurance will provide the City of
          New York and its debris removal contractors with coverage for claims
          arising from debris removal performed after collapse of World Trade
          Center buildings on September 11, 2001, including claims brought by City
          of New York employees.

                 Congressional Support for New York City’s Insurance
                 Proposals

                 New York City submitted a May 13, 2002, proposal to FEMA
                 requesting “funding as needed to pay the premium, plus associated
                 costs, for an insurance policy providing a minimum aggregate limit
                 of liability amount equal to $1 billion of non-risk-transfer
                 insurance, whether in the form of finite risk or captive insurance.”
                 On June 20, 2002, FEMA approved the city’s proposal with
                 stipulations that the city and state provide a detailed package
                 describing the mechanism for implementing the insurance
                 coverage and the manner in which the insurance carrier would be
                 funded. FEMA also acknowledged that there would be a minimum
                 of $1 billion in insurance.

                 In December 2002, New York State submitted a final proposal to
                 FEMA, including a detailed response to FEMA’s request, on how
                 the required insurance coverage could be acquired. New York
                 State, New York City, and the private contractors submitted a
                 “joint insurance package that will protect all the entities involved
                 in the debris removal project to accomplish the mission of the
                 FEMA approval letter.” This proposal described the need for
                 insurance coverage due to “substantial losses or extensive litigation
                 costs to defend against such allegations.” The proposal also
                 outlined the need for insurance due to “vast litigation and defense
                 costs exposure for the Contractors and the City” generally
                 associated with mass tort cases. The proposal concluded that, “The
             A Review of the World Trade Center Captive Insurance Company


                                        Page 8 

    City and contractors will have to incur considerable legal expense
    simply to manage and refute such claims.”

    At the time this document was created, many claims had already
    been filed against New York City and its contractors, and the
    timing and volume of future claims was uncertain. In accordance
    with the December 2002 proposal, “The Captive has been
    structured to preserve all available defenses and mitigants to
    lawsuits brought against the insured, including City immunities for
    emergency response, … and whatever recourse City workers may
    have under the Victim Compensation Fund.” The Victims
    Compensation Fund (VCF) was created to compensate victims or
    their families for death or injuries resulting from the terrorist
    attacks. Acknowledging that lawsuits were inevitable, it provided
    that the “existence of a funded Captive will not change the
    litigation dynamics in any appreciable fashion.”

    The New York State and New York City proposals received
    endorsements from members of both the United States Senate and
    the United States House of Representatives, as documented in their
    letters to FEMA in May and December of 2002. In two separate
    but similarly worded letters sent to FEMA in May 2002, both New
    York State Senators and thirty New York State Representatives
    urged the agency to give a “prompt review and approval of the
    City’s proposal.” In these letters, members of Congress noted that
    “because of the extraordinary circumstances of the attacks, and the
    need to begin recovery efforts immediately, the contractors began
    work without securing insurance coverage. Despite the City’s best
    efforts, the private insurance market has provided only minimal
    liability coverage, and none for potential environmental damages.”

    These letters express appreciation for the Administration’s
    commitment to help “fill the insurance gap by providing the
    resources that will enable the City to secure $1 billion in insurance
    on its own behalf and for the contractors.” They also added, “The
    coverage envisioned in this proposal will ensure that sufficient
    resources will be available to satisfy legitimate claims by
    individuals affected by the recovery operations while safeguarding
    the fiscal health of the City and the contractors.” Both New York
    State Senators wrote to FEMA again in December 2002, noting
    that the response “was prepared by the City, in close cooperation
    with the Contractors, and is fully supported by the State.” The
    senators urged FEMA to give the submission “prompt and
    favorable review and to provide the requested $1 billion in
    funding,” and thanked FEMA for its commitment to meet the
    insurance needs of the City and the Contractors related to the

A Review of the World Trade Center Captive Insurance Company


                           Page 9 

    massive debris effort at the WTC site, noting that all the parties
    involved in the debris removal undertaking would be protected.

    Criteria for Captive Operations

    Following approval of New York City’s final proposals and the
    passage of Public Law 108-7 in February 2003, FEMA began to
    work with New York City, State, and the contractors to create the
    Captive. Three agreements clarify the provision of federal funds
    from (1) FEMA to New York State, (2) New York State to New
    York City, and (3) New York City to the Captive. The grant
    agreement between FEMA and New York State and the subgrant
    agreement between New York State and New York City anticipate
    and incorporate defense costs and responsibilities into their terms,
    which are further outlined in the Captive’s liability insurance
    policy. The terms of the New York City and Captive agreement
    are intended to ensure the Captive’s conformity with the grant and
    subgrant agreements.

    Third-party liability insurance offers specific protection for insured
    parties in the event of a lawsuit. When a lawsuit is filed, the
    insurer is obligated to defend its insured pursuant to the insurance
    policy issued. The Captive’s liability insurance policy, certificate
    of incorporation, and bylaws were incorporated by reference into
    the New York State and New York City grant agreements, and
    provided the foundation for the Captive’s obligation to defend its
    insureds.

    The Captive exercises its duty to defend by litigating lawsuits filed
    against New York City and its debris removal contractors. The
    Captive’s involvement in ongoing litigation is consistent with these
    documents, as well as with statements from federal, state and local
    officials on the intended operation of the Captive.

             FEMA - New York State Grant, New York State - New
             York City Subgrant, and New York City - Captive
             Agreements

             According to a FEMA official, FEMA took the lead in
             drafting the grant agreement. In addition, FEMA hired
             attorneys that specialized in captive insurance to provide
             advice on establishing a captive insurance company and to
             draft the terms of the grant agreement.

             In November 2004, FEMA and the grantee, New York
             State Emergency Management Office, entered into the

A Review of the World Trade Center Captive Insurance Company


                          Page 10 

             grant agreement for the Captive project. The State
             Emergency Management Office also entered into a
             subgrant agreement with New York City in November
             2004. That subgrant agreement was based on the terms and
             conditions of the FEMA and state grant agreement.

             In September 2004, New York City entered into an
             agreement with the Captive to provide insurance pursuant
             to the liability insurance policy. The agreement, signed in
             anticipation of the federal-state grant, was entered into to
             ensure compliance with the expected terms and conditions
             of the FEMA grant agreement and the State Emergency
             Management Office subgrant agreement.

             Liability Insurance Policy

             According to a Captive official, the Captive Liability
             Insurance Policy, Section 2.04(a), governs the business of
             the company, outlines the duty to defend, and establishes
             the scope of operations. Captive officials also explained
             that not taking action to defend its insureds would be a
             breach of its duty, and that the company is constrained by
             the terms of the grant agreement and the insurance policy.

             The Captive’s liability insurance policy, which became
             effective retroactively to September 2001, specifies the
             company’s right and duty to defend an insured against any
             suit seeking damages to which the policy applies, even if
             the suit is groundless, false, or fraudulent. The duty to
             defend includes providing and paying for legal counsel in
             the event lawsuits are filed against the insureds. The
             Captive assumes the defense of any covered pre-existing
             claim not resolved prior to the creation of the Captive, pays
             fees and expenses of the appointed defense counsel, and
             becomes responsible for any settlement, judgment, or other
             disposition of the claim. In the event of a settlement or
             final judgment in a suit, the Captive will pay the amount
             due when it has received evidence of its obligation to pay.
             Also included in the liability insurance policy is the
             Captive’s right and obligation to appoint and retain counsel
             for defending suits against its insureds.

             Should a lawsuit against an insured succeed, either through
             a jury decision or settlement, the Captive’s attention would
             focus on financial compensation. Pursuant to the coverage
             clause of the Captive’s liability insurance policy, the

A Review of the World Trade Center Captive Insurance Company


                          Page 11 

             company will pay any monies its insureds are legally
             obligated to pay provided the claims fall into at least one of
             the following categories:

                 •	 General liability – liability arising from bodily
                    injury or property damage;
                 •	 Marine liability – liability arising from the use of
                    barges in transit on the Hudson River or other
                    waterways, to include piers, docks and adjacent
                    facilities for loading and unloading, on which such
                    barges operated in furtherance of debris removal;
                 •	 Environmental liability – liability arising from the
                    actual, alleged or threatened discharge, dispersal,
                    seepage, migration, release or escape of pollutants
                    into or upon the land, water, atmosphere, or any
                    other natural resource damage; or
                 •	 Professional liability – liability arising from any
                    alleged act, error or omission, misstatement,
                    misleading statement, neglect or breach of duty
                    committed in the performance of professional
                    services.

             Claims must have arisen from any occurrence of illness or
             injury that is one or a series of accidents, happenings, or
             events. Also, claims must arise from an exposure, or
             continuous or repeated exposures, to conditions that result
             in damages covered under the insurance policy that resulted
             from work during the exposure period. The exposure
             period began with the removal of debris starting September
             11, 2001, until August 30, 2002. All exposures to the same
             general conditions existing at or emanating from the WTC
             site are considered one occurrence.

             We received the following comments concerning the
             Captive’s duties and responsibilities under the liability
             insurance policy:

                 •	 A New York City Office of Management and
                    Budget official said the Captive was authorized
                    through the federal legislative process, and was
                    taking the expected legal action to defend its
                    insureds against claims. The official further
                    explained that the Captive was abiding by the terms
                    of its agreement with the city and all reporting
                    requirements.

A Review of the World Trade Center Captive Insurance Company


                          Page 12 

                 •	 A New York City Law Department official said the
                    liability insurance policy was for the benefit of the
                    city and its contractors to protect their interests in
                    the event of lawsuits, and the Captive has a
                    contractual and legal obligation to defend the
                    insureds.
                 •	 New York State Insurance Department officials
                    explained that the purpose of the Captive was to
                    indemnify New York City and private contractors
                    for liabilities incurred during the WTC clean-up.
                    The officials also said the Captive is obligated
                    under its insurance policy to provide a legal defense
                    for its insureds.
                 •	 A former board member and contractor
                    representative who worked for one of the four
                    primary contractors said he believed the Captive
                    had a fiduciary responsibility to the insureds
                    because the contractors did not cause the problem;
                    they were trying to solve it.
                 •	 A FEMA official said the Captive was created as an
                    insurance company to protect the interests of New
                    York City and its contractors by defending them
                    against claims arising from clean-up efforts at the
                    WTC site after the terrorist attacks.
                 •	 Captive officials said the liability insurance policy
                    governs the business of the company, outlines the
                    duty to defend, and establishes its scope of
                    operations. Captive officials explained that not
                    taking action to defend its insureds would be a
                    breach of its duty, and the company is constrained
                    by the terms of the grant agreement and insurance
                    policy.

             Certificate of Incorporation

             The Captive’s certificate of incorporation became effective
             in June 2004, and characterizes the company as a not-for-
             profit corporation formed to provide insurance for debris
             removal occurring on or after September 11, 2001. The
             insurance was solely for liabilities incurred by New York
             City and its affiliated companies. The insurance law for
             New York State, which regulates the Captive, defines
             affiliated companies as contractors, subcontractors, and
             consultants of New York City.



A Review of the World Trade Center Captive Insurance Company


                          Page 13 

             The Captive is authorized by the insurance law of New
             York State to transact business covering personal injury
             liability. The certificate of incorporation defines personal
             injury liability insurance, in part, as insurance against legal
             liability of the insured, and against loss, damage, or
             expense incident to a claim of such liability. The claims
             must arise from the death or injury of any person, or arise
             out of injury to the economic interest of any person, as the
             result of negligence in rendering expert, fiduciary, or
             professional service. It is further defined as insurance to
             protect an insured against liability for indemnification or
             contribution to a third party held responsible for injury to
             the insured’s employee arising out of and in the course of
             employment.

             Bylaws

             The Captive’s bylaws specify that the company shall
             receive grant funds pursuant to the grant agreement
             between FEMA and the New York State Emergency
             Management Office. The bylaws also indicate that the
             Captive shall not take any action that conflicts with the
             provisions of the grant agreement without prior written
             notice to FEMA, and shall conduct its affairs in compliance
             with the terms of the agreement. The bylaws also describe
             how the Captive issues a liability insurance policy to New
             York City as the named insured, and the contractors as
             additional named insureds, effective September 2001.

    The Captive’s Litigation of Claims

    The ongoing litigation regarding debris removal claims with which
    the Captive is involved, while delaying possible relief to those with
    health problems arising from debris removal work, conforms to the
    Captive’s mandate as an insurance company to defend an insured
    against any suit seeking any damages. Immunity is an available
    defense which New York City and contractors have urged the
    Captive to assert. In interposing immunity defenses, the Captive is
    not acting inconsistently with its charter, which conforms to Public
    Law 108-7.

    We recognize the increased concerns regarding the number of
    claims the Captive has settled when compared to the thousands of
    individuals who allege health problems as a result of their work at
    the WTC site. However, the process of determining the legitimacy
    of lawsuits filed against New York City and contractors has been

A Review of the World Trade Center Captive Insurance Company


                          Page 14 

            ongoing in both the Second Circuit Court of Appeals and U.S.
            District Court for the Southern District of New York. As of April
            2008, this process is proceeding through the discovery phase at the
            district court level. Importantly, in the context of tort litigation,
            which Public Law 108-7 was enacted to address, determining the
            legitimacy of the claims depends not only on the existence of an
            illness or injury linked to WTC debris removal work, but also on
            whether another party’s negligence caused such illness or injury.

            Many agree that the tort system may not be best suited to providing
            compensation to WTC victims. Officials from both the Captive
            and New York City have publicly advocated meeting the needs of
            individuals injured as a result of debris removal efforts through
            other means. Specifically, in February 2007, the mayor of New
            York City proposed reopening the September 11th VCF to help
            ailing workers receive relief without having to prove fault. He also
            recommended granting immunity to the city and contractors, which
            would further help redirect claims away from the courts.

            According to a February 13, 2007, statement by the Captive, its
            officials share the mayor’s view that a VCF would provide a better
            way to resolve the claims of those involved in the post-9/ll rescue,
            recovery and debris removal process than the tort system and the
            current costly and time-consuming litigation. Captive officials
            stated, “It is within the congressional prerogative to create a new,
            or reopen the old, Victim Compensation Fund, which would make
            funds available on an appropriate and equitable basis to those
            involved in the post-9/ll rescue, recover and debris removal
            process.”

            Unlike the VCF, which was created to compensate victims or their
            families for death or injuries resulting from the terrorist attacks, the
            Captive was created as an insurance company to insure and defend
            New York City and its contractors from claims arising from debris
            removal at the WTC site. As such, the Captive operates differently
            from the VCF by legislative design, and cannot automatically pay
            claims without adhering to its insurance policy.


The Captive’s Expenditures Are Offset Through Investment
Income and Guided by Internal Controls
     The grant agreements signed by FEMA, New York State, New York City
     and the Captive permit the insurance company to earn income by investing
     the $999,900,000 premium. As a result of its investment strategy, the
     Captive has increased the value of FEMA’s initial premium to

        A Review of the World Trade Center Captive Insurance Company


                                  Page 15 

$1,011,230,283 as of March 2008. The Captive also developed a system
of internal controls that, if followed, should improve its ability to comply
with the grant agreements.

       Expenditures

       As shown in Chart 1, as of March 2008, the Captive’s expenditures
       totaled $132,497,099. This includes administrative costs - staff
       salaries and office expenses; compensation for professional
       services - banking and accounting activities; claims related
       expenses - legal fees and claims administration; and claims paid.
       Chart 2 illustrates that claims-related expenses, including costs of
       attorneys and other legal services, totaled $115,486,601 as of
       March 2008.

       Chart 1: The Captive’s Total Expenditures as of March 2008




       Source: WTC Captive Insurance Company




   A Review of the World Trade Center Captive Insurance Company


                             Page 16 

    Chart 2: The Captive’s Claims Related Expenses as of March
    2008




    Source: WTC Captive Insurance Company



    As defense and plaintiffs’ attorneys continue to argue before the
    courts, the Captive will continue to incur legal expenses on behalf
    of New York City and its debris removal contractors. The
    Captive’s president said that the nature of tort liability involves
    proving damages through trial or negotiated settlements, a time
    consuming and costly process.

    While FEMA does not control the Captive’s expenditures, the
    grant agreements permit it to request cost-cutting measures.
    FEMA officials said they had not requested a reduction in the
    Captive’s spending because no discrepancies or violations of the
    grant agreements had occurred.

    Investments

    The agreement between New York City and the Captive required
    the development of a general investment strategy for FEMA grant
    funds to be used until the Captive hired an independent investment
    manager. After consulting with FEMA and receiving the funds in
    December 2004, the Captive invested in treasury bills and a money
    market fund.



A Review of the World Trade Center Captive Insurance Company


                          Page 17 

                         The Captive hired BlackRock Financial Management, Inc., as its
                         investment manager in March 2005, and the company began active
                         management of the insurance company’s funds in April 2005.
                         BlackRock Financial Management, Inc., developed an investment
                         strategy designed, in part, to preserve the invested assets and to
                         provide sufficient liquidity for payment of the costs and expenses
                         of Captive’s operations. According to the Captive, the insurance
                         company held $1,011,230,283 in assets as of March 2008.

                         Internal Controls

                         The grant agreements include requirements for the Captive to
                         comply with Office of Management and Budget (OMB) Circulars
                         A-1332, A-1023 and A-874.

                         OMB Circular A-133 establishes objectives for internal controls
                         pertaining to compliance requirements for federal programs that
                         ensure proper and lawful execution and recording of transactions,
                         as well as safeguarding funds, property, and other assets against
                         loss from unauthorized use or disposition. OMB Circular A-102
                         requires nonfederal entities receiving grant awards to establish and
                         maintain internal controls to ensure compliance with federal laws,
                         regulations, and program compliance requirements. OMB Circular
                         A-87 provides for a uniform approach for determining costs and to
                         promote effective program delivery, efficiency, and better
                         relationships between governmental units and the federal
                         government.

                         The Captive developed and documented internal controls to guide
                         its day-to-day operations and fiscal responsibilities. These controls
                         govern employment practices, legal and regulatory compliance,
                         financial reporting, and information technology and data storage.
                         We reviewed the Captive’s internal control manual and determined
                         that it included adequate processes and procedures to comply with
                         the applicable OMB circulars.

                         In addition to our review, the Captive’s internal controls were
                         reviewed by Johnson Lambert & Co., an independent accounting
                         firm. In March 2005, the Captive hired Johnson Lambert & Co. to
                         conduct annual audits of its financial reports. The company issued
                         an audit report in April 2005 for 2004, a report in April 2006 for
                         2005, and a third report for 2006 in March 2007. These audit

2
  OMB Circular A-133, Audits of States, Local Governments, and Non-Profit Organizations, June 26, 1997
3
  OMB Circular A-102, Grants and Cooperative Agreements With State and Local Governments,
October 7, 1994, further amended August 29, 1997
4
  OMB Circular A-87, Costs Principles for State, Local and Indian Tribal Governments, May 10, 2004
                    A Review of the World Trade Center Captive Insurance Company


                                               Page 18 

                          reports concluded that the Captive complied, in all material
                          respects, with all requirements of OMB Circulars A-133, A-102
                          and A-87. The reports further concluded that the Captive’s
                          internal controls complied with the requirements of laws,
                          regulations, contracts, and grants as required by OMB Circular
                          A-133, and that there were no material weaknesses regarding the
                          Captive’s internal controls over compliance and its operation.

                          The agreements signed by FEMA, New York State, New York
                          City, and the Captive provide that the insurance company is
                          subject to additional oversight. The Captive’s financial and
                          performance reports, for example, are submitted to the following
                          entities:

                              •    FEMA
                              •    House Appropriations Committee
                              •    Senate Appropriations Committee
                              •    New York State Emergency Management Office
                              •    New York State Insurance Department
                              •    Office of the New York State Comptroller
                              •    New York City

                          Based on discussions with federal, state, and city officials, the
                          Captive continues to fulfill its reporting requirements by providing
                          the required information. FEMA officials in the Recovery
                          Division and Grants Management Branch confirmed receipt of the
                          required quarterly and annual reports. Officials from the New
                          York State Emergency Management Office and New York State
                          Insurance Department further attested to the receipt and
                          completeness of Captive’s reports. A New York City Office of
                          Management and Budget official said he receives copies of the
                          reports in his role as a member of the Captive’s board of directors.
                          These officials said that, based on their review of these reports, the
                          Captive was functioning according to its obligations in the grant
                          agreements.

        Claims Administration Procedures Support the Captive’s Current
        Activities
                 In January 2005, the Captive hired GAB Robins, a private firm that
                 specializes in third-party claims administration services.5 At the Captive’s
                 direction, GAB Robins developed and implemented procedures to catalog
                 claims received from an insured named in a lawsuit, as well as coordinate

5
 In the fall of 2007, the Captive transferred claims administration functions from GAB Robins to Navigant
Consulting, Inc. GAB Robins continues to handle specific administrative tasks.
                     A Review of the World Trade Center Captive Insurance Company


                                                 Page 19 

with the Captive’s coverage counsel to determine each claim’s coverage
eligibility. This process allowed the Captive to determine whether claims
were covered under its liability insurance policy, confirm the decision
with its insureds, and notify the lead defense counsel of new lawsuits. As
of March 2008, the Captive identified 9,397 plaintiffs who filed lawsuits
or other pleadings against the Captive’s insureds.

Once hired, GAB Robins developed procedures to receive legal
documents from insureds and created electronic files using the information
contained within each suit. Following receipt and documentation,
complaints were sent to Captive’s coverage counsel, McDermott Will &
Emery, for coverage analysis. When a coverage determination was made,
the claims administrator coordinated with the Captive, the Captive’s
insureds, and defense counsel to ensure that new lawsuits were accepted
for defense.

McDermott Will & Emery undertakes coverage analysis on behalf of the
Captive by determining whether claims in each complaint fall under the
Captive’s insurance policy or are excluded from coverage based on certain
exceptions. Specifically, the exclusion section of the Captive’s liability
insurance policy bars liabilities for punitive damages, workers’
compensation, disability, retirement benefits, fines, sanctions or penalties,
and liability for intentional acts by an insured’s employee. Claims are also
reviewed to determine if they fall within the geographic and temporal
limits of the insurance policy. McDermott, Will & Emery also confers
with the Captive for a final decision on coverage eligibility.

GAB Robins managers told us that their process, from receipt of notice of
a lawsuit to sending the notification of a decision, is completed within 45
days. Diagram 1 outlines the general steps involved in the Captive’s
claims administration activities as managed by GAB Robins. Appendix C
provides a more comprehensive explanation of the Captive’s claims
administration process.




   A Review of the World Trade Center Captive Insurance Company


                             Page 20 

Diagram 1: Claims Administration Process




Source: The World Trade Center Captive Insurance Company and GAB Robins

                      Ongoing Litigation on the Claims Administration Process

                      New York City and its contractors initially argued before the
                      district and appeals courts for broad immunity for their work at the
                      WTC site based on state and federal laws. For this reason, the
                      Captive’s president informed us in February 2007 that traditional
                      third-party administrator activities, such as direct contact with the
                      plaintiffs’ attorneys, claim investigation, and documenting
                      damages, would be premature or inappropriate. GAB Robins’ staff
                      provided a similar assessment, saying that the extent to which the
                  A Review of the World Trade Center Captive Insurance Company


                                            Page 21 

            claims administration process is implemented and the tasks
            involved depend on the litigation.

            On March 26, 2008, the appeals court decided that state immunity
            laws may provide protection from liability rather than from
            lawsuit, and federal law may also provide protection from suit. The
            extent of these immunities will now be determined in district court,
            which has resumed discovery proceedings.

            As of April 2008, the Captive had not broadened its claims
            administration procedures beyond those already described due to
            ongoing litigation. The plaintiffs have begun to submit additional
            information to support their claims and the Captive’s lead defense
            counsel has begun to review this documentation. The Captive’s
            president said that the responsibility for contacting the plaintiffs’
            attorneys and analyzing the documentation rests with the defense
            counsel. The Captive’s claims administrator remains responsible
            for intake and cataloging of claims and providing notification of
            new lawsuits.


FEMA Oversight Activities Should Be Strengthened
     According to OMB Circular A-123, “Management’s Responsibility for
     Internal Control,” management is responsible for developing and
     maintaining effective internal control, and should design management
     structures that help ensure accountability of results. In addition, internal
     controls must be established that reasonably ensure that funds and other
     assets are safeguarded against waste, loss, unauthorized use, or
     misappropriation. As part of this process, agencies must take systematic
     and proactive measures to develop and implement appropriate, cost
     effective internal controls.

     Under the grant agreement between FEMA and New York State, FEMA
     maintains full authority to negotiate, administer, and execute all terms and
     conditions of the grant agreement. While nothing came to our attention
     that would lead us to conclude that the Captive’s operations have not been
     managed according to the grant agreement, we discovered specific areas
     related to financial reporting and procurement where FEMA’s internal
     controls should be strengthened. Establishing such internal controls would
     provide greater assurance that the purpose of the grant is achieved, and
     federal grant funds are properly expended.




        A Review of the World Trade Center Captive Insurance Company


                                  Page 22 

    Oversight of the Captive’s Financial and Performance
    Reporting

    According to Article VII of the FEMA and New York State grant
    agreement, which describes FEMA’s oversight role, the Captive
    must satisfy periodic reporting requirements that include
    submitting to FEMA:

        •	 A report of each calendar quarter of losses incurred, losses
           paid, changes in experience account balances, and changes
           in individual and aggregate case reserves;
        •	 Annual reports;
        •	 Quarterly and annual financial statements; and
        •	 Minutes for all meetings of Captive’s board of directors
           and advisory committee.

    The FEMA Grants Handbook, dated June 2002, establishes
    internal policies and procedures that govern FEMA’s assistance
    management process for both non-disaster and disaster programs.
    The policies and procedures are intended to ensure that grant funds
    are used for approved purposes.

    According to the Grants Handbook, monitoring FEMA’s disaster
    grants is the joint responsibility of a disaster grants management
    specialist in the Grants Management Branch and a program officer
    from the responsible program office. Monitoring activities should
    include, at a minimum, quarterly reviews of financial and
    performance reports that are to be documented and placed in the
    official grant file. However, for the Captive grant, procedures for
    the coordination of monitoring activities between the grants
    management specialist and program officer have not been
    established, and there is no process to ensure the adequacy of
    financial and performance reviews. In addition, a system to ensure
    that all monitoring actions are appropriately documented and filed
    has not been developed.

    A FEMA management official with extensive involvement in the
    creation of the Captive said the agency's oversight role was to
    review quarterly and annual reports submitted by the Captive.
    Another FEMA management official added that there is no
    precedent for establishing a billion-dollar insurance company after
    a terrorist attack. Consequently, there are no policies or
    procedures on exactly how to manage this project, as this situation
    is unique.



A Review of the World Trade Center Captive Insurance Company


                          Page 23 

    FEMA’s Grants Management Branch

    The Grants Management Branch is responsible for reviewing the
    grantees’ financial and performance reports to determine their
    progress, as well as compliance with grant agreements. According
    to a FEMA grants management official, the office receives the
    Captive’s financial reports from the FEMA program officer. A
    grants management specialist reviews the Captive’s expenses,
    investment returns, and outstanding obligations for reasonableness.
    However, a written assessment of the review results is not
    prepared.

    The Grants Handbook requires that the appointment of a grants
    management specialist and program officer consider a person’s
    experience, training, and grants or program knowledge. A FEMA
    grants manager explained that numerous pages of back-up
    financial information are attached to the Captive’s reports, such as
    balance sheets, financial status reports, and other documents that
    are not normally received. The official also said it was difficult to
    understand all of the financial information due to the level of
    detail. Moreover, FEMA does not perform a more thorough
    analysis of these documents because of staffing and time
    constraints. Therefore, this type of review results in the reports
    receiving “a really good glance.”

    A grants management official said that since the staff is short-
    handed, it uses signed and dated post-it notes to document status
    information. Also, some official information is documented in a
    memo-to-record. Both types of information become a part of the
    official file.

    Communication between the grants management specialist and the
    program officer is informal. According to the grants management
    specialist, if discrepancies are found in a financial report, the
    program officer is contacted to resolve the problem before filing
    the report. However, no discrepancies have been found to date.

    Program Office

    Under the grant agreement between FEMA and New York State,
    the designated program office maintains responsibility for
    monitoring the technical performance of the Captive’s activities as
    described in the project narrative. The program officer responsible
    for the Captive grant said that after receiving their financial
    reports, he reviews expenses and investments for any significant
    increases in expenses or decreases in investment returns that would

A Review of the World Trade Center Captive Insurance Company


                          Page 24 

    raise concerns that may need to be further explored. He also pays
    special attention to legal expenses and said that there has never
    been a reason for FEMA to request the Captive to initiate cost-
    cutting measures because most legal services are at reasonable
    rates.

    The Captive grant is unique in that there is an initial performance
    period of 25 years from the effective date of the agreement, with
    provisions for extensions in 2-year increments. In addition, FEMA
    disbursed the entire award amount to the Captive at the beginning
    of the performance period, instead of through an allocation process
    that makes funds available for obligation. A grants management
    official said that, to their knowledge, this is the first time FEMA
    has transferred an entire award amount up front and for such an
    extended period of time. They also said that when the Captive
    award was granted, they knew the current staff would not be
    around for the close-out. Therefore, individuals replacing the
    present staff would have to become familiar with the grant by
    reviewing the files and making sure they know the major
    participants.

    While we recognize that federal regulations do not outline a
    specific process for an awarding agency to assess the performance
    of a grantee, FEMA needs to establish a process to ensure the
    adequacy and consistency of reviews conducted of the Captive’s
    financial and performance reports. Considering that many
    provisions of the Captive grant agreement are atypical in
    comparison to other FEMA grant awards, it is essential that a
    comprehensive financial and performance review process be
    established and documented. It is also important that the quality of
    this process provide assurance that grant funds are being properly
    expended.

    Oversight of the Captive’s Procurement Activities

    In order to fulfill its mandate of insuring the city and its contractors
    for claims arising from debris removal at the WTC site, the
    Captive has solicited and awarded professional service contracts.
    These contracts include custodian and banking services,
    investment management, third-party claims administration,
    auditing, media and public relations, actuarial services, legal
    services, and Captive management.

    The Captive’s expense summary document shows $126,064,897 in
    expenses for professional services from inception through March
    2008. Due to the level of attention the Captive’s contractual

A Review of the World Trade Center Captive Insurance Company


                          Page 25 

    service expenses have been subjected to from the media and other
    entities, we reviewed FEMA’s internal controls over the Captive’s
    solicitation and award procedures for professional service
    contracts.

    According to the grant agreement between FEMA and New York
    State, the general management of the corporate affairs of the
    Captive is vested in a board of directors. FEMA officials said they
    approved pre-grant expenses until the funds were transferred to the
    Captive in December 2004. Since that time, the Captive and its
    board of directors have been solely responsible for expenditures as
    all grant funds are under their control.

    The Captive’s board of directors approved professional service
    contracts with minimal intervention by FEMA. A FEMA
    management official said that Captive’s contracting requirements
    are not the sort that FEMA typically handles because the company
    is compelled to hire specialists within an insurance industry that is
    highly complex and technical. The official additionally said that
    FEMA is made aware of Captive’s contracts through verbal
    presentations, board meetings, and reports. However, given the
    unique characteristics of this grant and FEMA’s responsibility to
    ensure that federal grant funds are appropriately used, a more
    active role by FEMA in the procurement process is essential.

    The FEMA and New York State grant agreement requires the
    Captive to comply with FEMA regulation, 44 Code of Federal
    Regulation (CFR) Part 13, “Uniform Administrative Requirements
    for Grants and Cooperative Agreements to State and Local
    Governments.” However, the grant agreement exempts the
    Captive from 44 CFR Part 13.36, which covers the procurement of
    property and services. Instead, the Captive’s procurement
    activities are governed by the requirements set forth in Exhibit A
    of the New York City and Captive agreement.

    In general, Exhibit A outlines basic methods of procurement that
    parallel 44 CFR Part 13.36, but does not include all of the
    requirements. For example, under 44 CFR Part 13.36(g), an
    agency can request procurement information from the grantee or
    subgrantee under certain circumstances, such as when a
    procurement is expected to exceed specific thresholds and is
    awarded without competition, or is awarded to other than the
    lowest bidder under a sealed-bid procurement. In addition,
    44 CFR Part 13.36(f) requires that a cost or price analysis be
    performed in connection with every procurement action. In
    contrast, these provisions are not incorporated in Exhibit A.

A Review of the World Trade Center Captive Insurance Company


                          Page 26 

    According to a FEMA management official, Exhibit A was
    developed to provide greater clarity of the procurement
    requirements, and provisions not included in Exhibit A were those
    not usually relied on by FEMA when administering 44 CFR
    Part 13. In addition, the separate procurement requirements make
    sure that Captive could compete in a highly specialized
    environment when possible.

    A FEMA official said that, because FEMA does not typically deal
    with the types of contracting services the Captive requires, the
    agency would likely become involved “after the fact” regarding
    procurement issues. He said that service providers are costly, and
    FEMA does not become involved in the highly technical world of
    insurance.

    According to a Captive management official, the company selected
    service providers pursuant to its procurement procedures.
    Generally, service providers are selected for an initial term of 3
    years, and the agreements may authorize extensions beyond the
    initial term. The board of directors approves all selections and
    extensions. While there is not a specific limit on contract terms,
    the board has expressed a reluctance to extend an arrangement with
    a service provider beyond a term of 5 to 6 years without
    conducting a new request for proposal process.

    Our review of documents related to the solicitation and award of
    current service provider contracts showed that the Captive has
    complied with the provisions as outlined in Exhibit A of the
    Captive and New York City grant agreement. However, although
    not specifically outlined in regulation, FEMA’s participation in
    Captive’s solicitation, award, and renegotiation of professional
    service contracts needs to be increased because of the unique
    mission and provisions of this grant agreement, as well as other
    related factors that include:

        •	 The emphasis placed on systems of internal control for
           prudent business practices;
        •	 The increased scrutiny surrounding Captive’s grant 

           expenditures; 

        •	 The Captive’s exclusion from requirements of FEMA’s
           traditional procurement regulations; and
        •	 FEMA’s accountability for the proper expenditure of
           federal grant funds.



A Review of the World Trade Center Captive Insurance Company


                          Page 27 

Recommendations
      We recommend that the Administrator, Federal Emergency
      Management Agency:

      Recommendation #1: Develop and implement a review process
      for Captive financial and performance reports that will provide
      assurance that funds are being used prudently and according to
      provisions of the grant agreements. This review process should be
      documented in order to allow for continuity and subsequent follow
      up of all analyses and conclusions.

      Recommendation #2: Establish a system of coordination between
      the responsible program office and the Grants Management Branch
      to improve and facilitate monitoring activities for Captive’s
      financial and performance reporting.

      Recommendation #3: Work in conjunction with the Captive and
      the Grants Management Branch to ensure that financial reports
      submitted include explanations to facilitate an understanding of the
      information reported.

      Recommendation #4: Ensure that sufficient personnel with the
      appropriate level of expertise are assigned to perform substantive
      reviews of all Captive financial and performance reports, and
      subsequent attachments.

      Recommendation #5: Develop and implement a review process
      to verify the appropriateness of the Captive’s solicitation, award,
      and renegotiation processes, and document the results.



Management Comments and OIG Analysis
      We evaluated FEMA’s written comments and have made changes
      to the report where we deemed appropriate. Below is a summary
      of FEMA’s written response to the report’s recommendations, and
      our analysis of the response. A copy of FEMA’s response, in its
      entirety, is included as Appendix B.

      Recommendation #1: Develop and implement a review process
      for Captive financial and performance reports that will provide
      assurance that funds are being used prudently and according to
      provisions of the grant agreements. This review process should be


  A Review of the World Trade Center Captive Insurance Company


                            Page 28 

    documented in order to allow for continuity and subsequent follow
    up of all analyses and conclusions.

    FEMA Response: FEMA agreed with our recommendation. In
    its response, FEMA noted that while the Disaster Assistance
    Directorate, Grant Programs Directorate, and Office of Chief
    Counsel all play a role in reviewing the Captive’s activities, its
    review process with respect to the Captive’s financial and
    performance reports is somewhat informal and unstructured.
    FEMA proposed establishing an internal committee comprised of
    staff from its Disaster Assistance Directorate, Grant Programs
    Directorate, and Office of Chief Counsel to meet to discuss and
    document their review of the Captive’s reports. FEMA also
    proposed to develop a standard operating procedure to memorialize
    an appropriate review process to address the unique nature of
    monitoring an insurance company that may operate for at least 25
    years.

    OIG Evaluation: We consider FEMA’s proposal responsive to
    the recommendation. The recommendation is resolved and open
    pending verification that (1) standard procedures have been
    developed for conducting in-depth reviews and assessments of
    Captive financial and performance reports, and (2) regular
    meetings are being held with FEMA’s staff from the Disaster
    Assistance Directorate, Grant Programs Directorate, and Office of
    Chief Counsel to discuss, assess, and document reviews of Captive
    reports.

    Recommendation #2: Establish a system of coordination between
    the responsible program office and the Grants Management Branch
    to improve and facilitate monitoring activities for Captive’s
    financial and performance reporting.

    FEMA Response: FEMA agreed with our recommendation and
    reiterated its intent to establish a committee with staff from the
    Disaster Assistance Directorate, Grant Programs Directorate, and
    Office of Chief Counsel to meet regularly and summarize in
    writing their coordination and review process. FEMA said that the
    committee will meet at least quarterly upon receipt of the Captive’s
    reports and will utilize a formal standard operating procedure to
    guide its activities.

    OIG Evaluation: We consider FEMA’s proposal responsive to
    the recommendation. The recommendation is resolved and open
    pending verification that the FEMA staff is meeting at least
    quarterly as proposed, and that standard operating procedures have

A Review of the World Trade Center Captive Insurance Company


                          Page 29 

    been developed as guidance for future program managers. This
    action should formalize regular contact between the program office
    and Grant Programs Directorate.

    Recommendation #3: Work in conjunction with the Captive and
    the Grants Management Branch to ensure that financial reports
    submitted include explanations to facilitate an understanding of the
    information reported.

    FEMA Response: FEMA agreed with our recommendation and
    said it has worked closely with the Captive over the last three years
    to ensure that the Captive provides all necessary financial reports
    in a manner that facilitates FEMA’s review. FEMA said the
    Captive has always been willing to accommodate FEMA in this
    regard. FEMA noted that these reports can be complex but, as part
    of the committee process described above, it proposed to re-engage
    on this issue internally and communicate any additional reporting
    needs to the Captive.

    OIG Evaluation: We consider FEMA’s comment responsive to
    the recommendation, which is resolved and open. This
    recommendation will remain resolved and open until FEMA
    provides the results of internal discussions, and documentation of
    communications with the Captive regarding additional reporting
    needs to enhance understanding of the Captive’s reports. In
    addition, any additional reporting needs should be incorporated in
    FEMA’s standard operating procedures for conducting reviews of
    the Captive’s financial and performance reports.

    Recommendation #4: Ensure that sufficient personnel with the
    appropriate level of expertise are assigned to perform substantive
    reviews of all Captive financial and performance reports, and
    subsequent attachments.

    FEMA Response: FEMA agreed with our recommendation.
    FEMA noted that the number of personnel assigned to monitor the
    Captive has been small, given that oversight of captive insurance
    companies is not ordinarily part of FEMA’s mission. FEMA
    recognized the need to create a greater depth of expertise given the
    number of years FEMA may have to monitor the Captive’s
    operations. FEMA proposed to further develop the depth of
    experience of its staff through the committee process described
    above for the key offices within the Disaster Assistance
    Directorate, Grant Programs Directorate and the Office of Chief
    Counsel.


A Review of the World Trade Center Captive Insurance Company


                          Page 30 

    OIG Evaluation: We consider FEMA’s proposal responsive to
    the recommendation. The recommendation remains resolved and
    open pending verification that FEMA has taken steps to ensure its
    committee includes personnel with sufficient knowledge and
    expertise to conduct in-depth assessments of the Captive’s
    financial and performance reports.

    Recommendation #5: Develop and implement a review process
    to verify the appropriateness of the Captive’s solicitation, award,
    and renegotiation processes, and document the results.

    FEMA Response: FEMA agreed in part, noting that the Captive
    is not a FEMA grantee or sub-grantee and that it is highly unusual
    for an agency to become involved in the procurement activities of
    an entity such as the Captive. FEMA said that the Captive is not
    subject to FEMA's regulations at 44 CFR Part 13 regarding grantee
    and sub-grantee procurement requirements. FEMA said that it
    tends not to involve itself in its grantees’ and sub-grantees’
    procurement activities, who are expected to follow applicable
    regulatory and policy guidance on procurement. FEMA added that
    there is no regulatory requirement that it become so involved and,
    in most instances, it would be ill-advised to interject itself into an
    independent procurement process for which it may not have the
    necessary expertise. FEMA said that it does not have expertise in
    the area of procuring investment firms, coverage counsel, third
    party claims administrators, and other professional service
    providers necessary to manage an insurance company.

    FEMA said that during the creation of the Captive, it recognized
    that it was critical that such a large amount of Federal funds be
    well-managed and procurement processes ensure the Captive
    receive bids and undertake a formal bid review process. Therefore,
    specific procurement processes were included as a requirement of
    the documents creating the Captive and the Captive has complied
    with these requirements.

    FEMA added that it does review major procurements undertaken
    by the Captive. FEMA said that the Captive alerts it to each such
    procurement the Captive intends to undertake as noted in the
    agendas for the Board of Director meetings. FEMA said that it is
    invited to attend all Captive Board of Directors meetings, and is
    provided with the minutes of each meeting. The minutes convey
    the Captive's report to its board including a briefing by the Captive
    staff regarding the need for such procurements and are followed by
    the issuance of a Request for Proposal and an outreach,
    recruitment, and engagement strategy. FEMA noted that all

A Review of the World Trade Center Captive Insurance Company


                          Page 31 

    bidders are thoroughly reviewed by Captive staff and finalists are
    subject to oral interviews to determine the best qualified service
    providers. The whole process is shared with the Board of
    Directors, who approves each procurement and makes all final
    decisions. FEMA said that all of its reviews, to date, have
    demonstrated the Captive has undertaken its procurements in a
    sound, professional manner, consistent with the procurement
    requirements set forth in the grant and sub-grant agreements.

    To address the OIG's concerns with respect to increased
    involvement, FEMA proposed to review how it monitors the
    Captive's procurement activities and examine whether it can create
    more formality in the process to carefully document its review.
    FEMA also agreed to work with the Captive to determine if there
    are more steps in the Captive's procurement process where FEMA
    should be involved.

    OIG Evaluation: We consider FEMA’s comments responsive to
    our recommendation. The recommendation is resolved and open
    pending our receipt of FEMA’s internal reviews of (1) current
    monitoring activities and whether these activities should be more
    formal, and (2) interactions with the Captive regarding FEMA’s
    level of involvement in the procurement process. We will evaluate
    this information and determine whether it complies with the intent
    of this recommendation.




A Review of the World Trade Center Captive Insurance Company


                          Page 32 

Appendix A
Purpose, Scope, and Methodology


                            We conducted this review of the WTC Captive Insurance
                            Company’s operations and responsibilities in response to
                            Congressman Jerrold Nadler’s concerns about the “possible
                            mishandling of claims brought by individuals who have suffered
                            deleterious health effects as a result of their rescue and recovery
                            work at the WTC site.”6 In his July 26, 2006 letter, Congressman
                            Nadler posed two principal questions:

                                 1) Why has the WTCC (World Trade Center Captive) chosen
                                    to use a $1 billion federal fund to litigate all 8,000 claims
                                    instead of settling whenever possible and appropriate?

                                 2) Why have no procedures been established to receive,
                                    review and pay medical, hospital, surgical and disability
                                    benefits to injured persons, and funeral and death benefits
                                    to dependents, beneficiaries or personal representatives of
                                    persons who were killed?

                            We considered the Congressman’s first question as a compliance
                            issue, examining not only the reasoning that supports the Captive’s
                            role in ongoing litigation, but also the extent to which that role is
                            consistent with relevant laws and grant documents. Regarding the
                            Congressman’s second question, we determined the extent to
                            which a claims administration process has been developed and
                            implemented, and ascertained what criteria exist to evaluate
                            claims. We also reviewed the Captive’s expenditures, investments,
                            and internal controls, and assessed FEMA’s monitoring efforts
                            concerning the Captive’s adherence to the grant agreement, and the
                            status of its holdings.

                            We analyzed Public Law 108-7 and the accompanying House
                            Conference Report 108-10, as well as other applicable federal,
                            state, and local laws. We also reviewed the grant agreement
                            between FEMA and New York State, the subgrant agreement
                            between New York State and New York City, the agreement
                            between New York City and the Captive, and the Captive’s
                            operational documents. We reviewed submissions from New York
                            City and New York State to FEMA regarding insurance for the city
                            and private contractors who removed debris from the WTC site;
                            correspondence from congressional, New York State, New York
                            City, and FEMA officials concerning the establishment and
                            funding of a captive; and applicable court documents concerning



6
    Congressman Nadler’s letter appears in full in Appendix C.
                        A Review of the World Trade Center Captive Insurance Company


                                                   Page 33 

Appendix A
Purpose, Scope, and Methodology


                   related litigation in the Second Circuit Court of Appeals and the
                   U.S. District Court for the Southern District of New York.

                   We also interviewed officials at FEMA’s headquarters in
                   Washington, DC and from its Region 2 office in New York City.
                   Our fieldwork in New York City included interviews with Captive
                   officers, and current and former board members, as well as with
                   staff from select service contractors. We interviewed
                   representatives of New York State and New York City, including
                   the New York State Insurance Department, the New York City
                   Office of Management and Budget, and the New York City Law
                   Department. In addition, we held teleconference interviews with
                   the New York State Emergency Management Office and with
                   plaintiffs’ attorneys.

                   Our fieldwork began in January 2007, and concluded in June 2007.
                   Our review was conducted under the authority of the Inspector
                   General Act of 1978, as amended, and according to the Quality
                   Standards for Inspections issued by the President’s Council on
                   Integrity and Efficiency.

                   We would like to offer our appreciation to officials from FEMA,
                   the Captive, New York State, New York City, and the private firms
                   and individuals with whom we spoke for their cooperation and
                   courtesies extended to our staff during this review.




               A Review of the World Trade Center Captive Insurance Company


                                         Page 34 

Appendix B
Management Comments to the Draft Report




               A Review of the World Trade Center Captive Insurance Company


                                         Page 35 

Appendix B
Management Comments to the Draft Report




               A Review of the World Trade Center Captive Insurance Company


                                         Page 36 

Appendix B
Management Comments to the Draft Report




               A Review of the World Trade Center Captive Insurance Company


                                         Page 37 

Appendix B
Management Comments to the Draft Report




               A Review of the World Trade Center Captive Insurance Company


                                         Page 38 

Appendix B
Management Comments to the Draft Report




               A Review of the World Trade Center Captive Insurance Company


                                         Page 39 

Appendix B
Management Comments to the Draft Report




               A Review of the World Trade Center Captive Insurance Company


                                         Page 40 

Appendix C
Letter from Congressman Jerrold Nadler




               A Review of the World Trade Center Captive Insurance Company


                                         Page 41 

Appendix C
Letter from Congressman Jerrold Nadler




               A Review of the World Trade Center Captive Insurance Company


                                         Page 42 

Appendix D
World Trade Center Captive Insurance Company’s Claims Administration Process


                   Initially, an insured under the Captive’s policy receives a
                   “summons with notice,” alerting it to a forthcoming lawsuit, or a
                   notice of an actual lawsuit from a plaintiff’s attorney. The notice
                   of a lawsuit is provided through a “check-off” complaint, which
                   lists possible alleged injuries and defendants. Injuries and
                   defendants’ names are checked off based on the plaintiff’s
                   allegations. The plaintiffs often name multiple insureds as
                   defendants in a single lawsuit.

                       •	 The insured provides these notices to the Captive’s claims
                          administrator, which reviews and classifies them as a
                          summons with notice or “check-off” complaint. The
                          claims administrator also separates complaints in a lawsuit
                          into individual claims, which equals the number of named
                          insureds or defendants.

                       •	 The claims administrator enters summonses with notice and
                          “check-off” complaints into its electronic database. As of
                          March 2008, the Captive had recorded lawsuits from 9,397
                          plaintiffs against nearly 90 insured WTC contractors and
                          New York City. As of March 2008, the Captive also
                          counted 413,337 claims, as individual plaintiffs are suing
                          multiple insureds.

                       •	 For each lawsuit received, the claims administrator enters
                          the plaintiff, defendants, nature of complaint, and alleged
                          cause of injury into its database. The claims administrator
                          compares new submissions to existing entries to avoid
                          duplication. Possible duplicates are evaluated through a
                          series of checks, including comparisons of case numbers
                          and birth and exposure dates, before being entered as new
                          claims.

                       •	 Attorneys at McDermott Will & Emery review each claim
                          against the Captive’s liability insurance policy to determine
                          coverage eligibility. For a claim to be accepted, it must:

                                (1) Fall within the insuring agreement of the policy,

                                (2) Allege that exposure to the cause of injury occurred
                                during the policy’s exposure period, and

                                (3) Arise out of WTC site debris removal work.



               A Review of the World Trade Center Captive Insurance Company


                                         Page 43 

Appendix D
World Trade Center Captive Insurance Company’s Claims Administration Process


                               •	 A claim is then compared to the exclusion section of the
                                  policy, which bars liabilities for punitive damages,
                                  workers’ compensation, disability, retirement benefits,
                                  fines, sanctions or penalties, and intentional acts by an
                                  insured’s employee. In submitting the claim, the insured
                                  must have complied with “conditions precedent to
                                  coverage,” which requires a timely, nonprejudiced
                                  submission of claims to the Captive.

                               •	 McDermott Will & Emery recommends acceptance,
                                  acceptance with reservation of rights, deferral, or denial.

                                   Acceptance of a claim for coverage brings the insured
                                   under the Captive’s umbrella for purposes of defending
                                   against the lawsuit. Claims may be accepted with
                                   reservation of rights, in which case a claim may or may not
                                   fall under the scope of coverage. In any event, it must be
                                   initially included in any legal defense under New York
                                   State law.7

                                   Deferrals result from lawsuits that do not have sufficient
                                   information to determine coverage eligibility. GAB Robins
                                   managers said that it does not send summonses with notice
                                   to McDermott Will & Emery. Instead, coverage decisions
                                   on these claims are automatically deferred. GAB Robins
                                   managers said that even some decisions on “check-off”
                                   complaints have been deferred due to insufficient
                                   information.

                                   Lastly, claims may be denied should information in a suit
                                   warrant such a decision. For example, claims may not fall
                                   within the insuring agreement of the policy or the injury
                                   may not have occurred at any of the WTC-related sites.
                                   Attorneys at McDermott Will & Emery said that the
                                   Captive’s coverage eligibility criteria are very broad and
                                   give insureds the benefit of the doubt.




7
 The Captive grants the “acceptance with reservation of rights” determination when the origin of a
claimant’s injury or illness cannot be immediately determined. If, for example, an individual worked the
WTC site as well as a non-WTC-related site over a particular time period and subsequently became ill from
work at either site, the cause of which is unknown, the Captive must by law accept the claim for coverage
and defend the insured from suit. Further analysis, including any court-driven discovery, should reveal the
origin of the injury and basis for the claim.

                     A Review of the World Trade Center Captive Insurance Company


                                                 Page 44 

Appendix D
World Trade Center Captive Insurance Company’s Claims Administration Process


                       •	 The Captive’s general counsel reviews McDermott Will &
                          Emery’s recommendations and authorizes acceptance,
                          acceptance with reservation of rights, deferral, or denial.

                       •	 McDermott Will & Emery posts the decision on an online
                          database, E-Room. E-Room allows coverage counsel to
                          pass information to the claims administrator on claims
                          recently decided, as well as on any changes to existing
                          entries that may have occurred. Staff members in GAB
                          Robins’ WTC Unit receive daily email updates from E-
                          Room on recent changes or additions to the database.
                          These updates lead GAB Robins to send notification letters
                          on a coverage decision to each insured, reporting the status
                          of recently submitted claims.

                       •	 If the claim is accepted, the claims administrator issues a
                          defense retention letter to Patton Boggs, the lead defense
                          firm hired by the Captive to represent its insureds in court.

                       •	 Deferrals are held until more information is submitted to
                          the Captive and the claims administrator. Any claims
                          denied for coverage may be resubmitted with additional
                          information.




               A Review of the World Trade Center Captive Insurance Company


                                         Page 45 

Appendix E
World Trade Center Captive Insurance Company Expenditures as of March 2008



        Table 1: The Captive’s Expenditures as of March 2008
                                     2004         2005              2006          2007         2008*         Total**

             Administrative
             Costs                  $1,360,535    $1,499,648      $1,459,438    $1,386,969     $404,676      $6,111,266

             Professional Service
             Fees                     575,123      2,349,527       2,710,588     4,208,881       734,177     10,578,296


             Claims-Related
             Expenses

              Claims                        0      3,136,364       4,371,242     3,479,688       798,574     11,785,868
              Administration
              Lead Defense                  0     14,690,177      17,772,812    26,367,039   (1,579,998)8    57,250,030
              Counsel
              Coverage                      0      2,188,878       1,430,810     1,576,637        99,780      5,296,105
              Counsel
              Pre-Existing                  0      2,149,291       1,957,267     2,076,056   14,870,8199     21,053,433
              Claims Counsel
              Document                      0       741,617        6,879,574    12,214,681       265,294     20,101,166
              Management

             Total Claims-
             Related Expenses               0     22,906,327      32,411,705    45,714,101    14,454,469    115,486,601

             Claims Paid                    0                0       45,000       275,936              0       320,936

             Total Expenses
                                    $1,935,658   $26,755,501     $36,626,731   $51,585,887   $15,593,322    132,497,099

             *January 2008 to
             March 2008

             **December 2004 to
             March 2008


        Source: WTC Captive Insurance Company




8
 The Captive reached a settlement for prior defense costs with an underlying insurance company and the
amount received is allocated across the Lead Defense, Pre-Existing Claims Counsel and Document
Management lines, which caused a net credit to the Lead Defense Counsel line.
9
 This amount reflects a payment to New York City’s Corporation Counsel for pre-existing claims counsel
work during Fiscal Years 2003-2005.

                      A Review of the World Trade Center Captive Insurance Company


                                                 Page 46 

Appendix F
Site Locations for World Trade Center Recovery Operations


                    In addition to the immediate World Trade Center site, commonly
                    known as “Ground Zero” after the September 11, 2001, terrorist
                    attacks, other sites in lower Manhattan, Brooklyn, and Staten
                    Island were used throughout recovery operations for additional
                    debris processing before final disposal. The Captive’s liability
                    insurance policy allows for claims arising from work at each
                    location, identifying all sites involved in the clean-up as the
                    “World Trade Center Site.”

                    Below, we present those sites identified in the Captive’s insurance
                    policy that are considered the “World Trade Center Site.” We
                    adopted this list when referring to multiple sites involved in the
                    recovery effort.

                        (a) The secured area in New York City bounded by Broadway
                            on the east, Albany Street and Thames Street on the south,
                            Chambers Street on the north and the Hudson River on the
                            west;

                        (b) The loading areas in New York City at the West Side
                            Highway and Chambers Street, as well as Pier 92 and the
                            Heliport at 59th Street and Hamilton Avenue;

                        (c) The Brooklyn Marine Transfer Stations where trucks
                            dropped off debris and debris was loaded onto barges;

                        (d) Barges in transit on the Hudson River and other waterways,
                            together with adjacent piers, on which such barges
                            operated;

                        (e) Trucks in transit between the World Trade Center and any
                            location involved in the transportation of debris including
                            such locations in Brooklyn and Staten Island;

                        (f) Debris loading and unloading areas, including those in
                            Brooklyn and Staten Island; and

                        (g) Debris sorting/sifting areas at Staten Island.




                A Review of the World Trade Center Captive Insurance Company


                                          Page 47 

Appendix G
Major Contributors to this Report


                    Deborah Outten-Mills, Chief Inspector, Department of Homeland
                    Security, Office of Inspections

                    Jacqueline Simms, Senior Inspector, Department of Homeland
                    Security, Office of Inspections

                    Andrew Schmidt, Inspector, Department of Homeland Security,
                    Office of Inspections

                    Richard Doery, Department of Homeland Security, Office of
                    Counsel to the Inspector General




                A Review of the World Trade Center Captive Insurance Company


                                          Page 48 

Appendix H
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Policy
                      Assistant Secretary for Public Affairs
                      Assistant Secretary for Legislative Affairs
                      Administrator, FEMA
                      Audit Liaison, FEMA

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                A Review of the World Trade Center Captive Insurance Company


                                          Page 49 

Appendix H
Report Distribution




 Additional Information and Copies

 To obtain additional copies of this report, call the Office of Inspector General
 (OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
 site at www.dhs.gov/oig.


 OIG Hotline
 To report alleged fraud, waste, abuse or mismanagement, or any other kind of
 criminal or noncriminal misconduct relative to department programs or
 operations:

     •    Call our Hotline at 1-800-323-8603;
     •    Fax the complaint directly to us at (202) 254-4292;
     •    Email us at DHSOIGHOTLINE@dhs.gov; or
     •	   Write to us at:
            DHS Office of Inspector General/MAIL STOP 2600, Attention:
            Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
            Washington, DC 20528.

 The OIG seeks to protect the identity of each writer and caller.
